    U.S. DEPARTMENT OF COMMERCE
              Office of Inspector General
                                                          

                                                          

 


                           Census Bureau

                Contract Modifications and
                         Award-Fee Actions
                 on the Decennial Response
                         Integration System
                      Demonstrate Need for
             Improved Contracting Practices

                        Final Report No. OIG-11-020-A
                                     February 15, 2011




                         Office of Audit and Evaluation
                                                          UNITED STATES DEPARTMENT OF COMMERCE
                                                          Office of Inspector General
                                                          Washington, D.C. 20230
February 15,2011

MEMORANDUM FOR:               Dr. Robert Groves
                              Director, U.S, ceJnsus Bureau       ~~


FROM:                         Anne C. Eilers'       !HAA    tO 1=J
                              Principal Assistant Inspector General for Audit and Evaluation

SUBJECT:                      Contract Modifications and Award-Fee Actions on the Decennial
                              Response Integration System Demonstrate Need for Improved
                              Contracting Practices
                              Final Report No. OIG-ll-020-A

This memorandum transmits our final report on the Decennial Response Integration System
(ORIS) contract modification and award-fee practices.

In October 2005, the Census Bureau awarded a $483 million cost-plus-award-fee contract to
Lockheed Martin Corporation to develop and implement ORIS, an information system that
would assist in 2010 Census data collection and analysis. Two years later, Census awarded a
contract modification, at a value of about $264,6 million, to Lockheed Martin. The modification
was primarily for increasing outbound telephone coverage follow-up (in which households were
contacted by telephone to verify the information provided in mailed-back Census forms). The
purpose of our audit was to detennine whether the bureau's contracting officer appropriately
awarded this modi fication and used the appropriate contract type for the initial ORIS contract
award.
In brief, we found that the bureau did not have adequate pre-award practices in place to ensure
that the modification was properly awarded, that the bureau committed to this contract type
without sufficiently justifying its use as required by the Federal Acquisition Regulation, and that
it used an award-fee payment structure that provided little incentive for the contractor to achieve
specific performance objectives, We recommended actions the bureau should take to address
these deficiencies.

Census's January 26, 2011, response to our draft report provides detailed comments on our
findings, The response concurs with, and commits to addressing, our recommendations, We have
summarized the response in our final audit report and have included it in its entirety as appendix
B, We note that Census has already begun to improve its award-fee practices.

In accordance with Department Administrative Order 213-5, please provide us with an audit
action plan within 60 days of the date of this memorandum. We extend our appreciation to
Census and the ORIS contractor's staff for the courtesies shown us during our fieldwork, If you
have any questions, please contact me at (202) 482-2754 or Mark Zabarsky at (202) 482-3884.
cc:	   Michael Palensky, Chief Acquisition Division, Census
       Pamela White, External Liaison Branch Chief, Census
       Adam Miller, Audit Liaison, Management Services Branch

Attachment
                                     Report In Brief
                                              U.S. Department of Commerce Ofﬁce of Inspector General
                                                                 February 15, 2011



Background                           Census Bureau
In October 2005, the Census
Bureau awarded a $483 million        2010 Census: Contract Modiﬁcations and Award-Fee
cost-plus-award-fee contract to
Lockheed Martin Corporation to
                                     Actions on the Decennial Response Integration System
develop and implement DRIS,          (DRIS) Demonstrate Need for Improved Contracting
an information system that           Practices (OIG-11-020-A)
would assist in 2010 Census data
collection and analysis.             What We Found
The contract has a 6-year per-       The Census Bureau did not have adequate contract pre-award practices in place to ensure that a
formance period, which includes      modification to the DRIS contract ( modification number 21, in the amount of $264.6 million)
designing and developing the         was properly awarded. Specifically, Census did not
system, conducting the census
                                     • 	 perform the required review for legal sufficiency before issuing the solicitation;
dress rehearsal that occurred in
2008, conducting 2010 census         • 	 retain essential documentation as part of the contract file to support the contracting officer’s
operations, and archiving data           price reasonableness decision; and
and disposing of equipment after
the census is completed. These       • 	 have the acquisition plan—which reflected significant changes resulting from modification
final activities are scheduled for       number 21 that affected the DRIS program—approved by the Department of Commerce’s
                                         Senior Procurement Executive before issuing the solicitation.
completion in September 2011.
                       The lack of well-defined pre-award processes may have resulted in the bureau’s inability to
                       promote and provide for full and open competition and ensure a fair and reasonable price in
Why We Did This Review awarding this modification.
In September 2007, Census            We also found that the bureau’s justification for the contract type and payment structure it chose
awarded Lockheed Martin an           for DRIS did not conform to federal guidance:
approximately $264.6 mil-
                                     • 	 Census did not adequately justify the contract type for the initial award; and
lion modification to the DRIS
contract. Most of the cost for the   • 	 the contract’s payment structure could have allowed the contractor to receive substantial
modification was for increasing          payments for less-than-satisfactory performance, leaving little in the award-fee pool to
outbound telephone coverage              encourage the contractor to meet or exceed desired outcomes.
follow-up (in which households
were contacted by telephone to       What We Recommended
verify the information provided
in mailed-back Census forms).        We recommend that the Census Bureau’s Chief, Acquisition Division
                                     1. 	 develop and implement internal controls to ensure that, going forward, pre-award policies
As part of our oversight of               and processes are adhered to;
the 2010 census, the Office          2. 	 direct the DRIS contracting officer to obtain the proper reviews, support, and approval
of Inspector General (OIG)                before issuing contract solicitations;
performed an audit to determine
                                     3. 	 ensure determination and findings on future contracts contain supporting details;
whether Census’s contracting of-
ficer appropriately awarded the      4. 	 conduct and document a cost-benefit analysis when deciding whether to use this contract
contract modification number              type in the future; and
and used the appropriate contract    5. 	 require the contracting officer to revise the award-fee payment structures of the final phase
type for the initial DRIS award.          of the DRIS contract to provide incentives for excellent contractor performance, and pro-
                                          hibit the contractor from receiving award fees for less-than-satisfactory performance.
U.S. Department of Commerce                                                                              Final Report No. OIG-11-020-A

Office of Inspector General                                                                                           February 15, 2011 



                                                                 Contents
                                                                          
Introduction..................................................................................................................................... 1 

Findings and Recommendations ..................................................................................................... 3 

   I.      DRIS Contract Modification’s Pre-Award Process Needed Improvement ......................... 3 

        A. A Review for Legal Sufficiency Was Not Performed...................................................... 3 

        B. Modification Awarded Without Documenting Price Reasonableness ............................. 4 

        C. Revised Acquisition Plan Was Not Approved Timely by Procurement Executive ......... 5 

   II. Census Bureau’s Practices for Justifying an Award-Fee Contract and Establishing the 

   Payment Structure Are Not Consistent with Federal Acquisition Guidance .............................. 5 

        A. Census Bureau Has No Assurance That the Contract Type Is Appropriate for the Initial 

        Contract Award........................................................................................................................ 6 

        B. Payment Structure Rewards Minimal Contractor Performance ....................................... 7 

Summary of Agency and OIG Comments ...................................................................................... 9 

Appendix A: Scope and Methodology.......................................................................................... 12

Appendix B: Bureau Response ..................................................................................................... 13 

U.S. Department of Commerce                                           Final Report No. OIG-11-020-A

Office of Inspector General                                                        February 15, 2011 



                                         Introduction


In October 2005, the Census Bureau awarded a $483 million cost-plus-award-fee contract to
Lockheed Martin Corporation to develop and implement the Decennial Response Integration
System (DRIS), an information system that would assist in 2010 Census data collection and
analysis. The contract has a 6-year performance period, which includes designing and developing
the system, conducting the census dress rehearsal that occurred in 2008, conducting 2010 Census
operations, and archiving data and disposing of equipment after the census is completed. Census
divided DRIS contract performance into three phases, as shown below in table 1.


                  Table 1. DRIS Contract Performance Phases
 Phase             Start Date           End Date                          Tasks

                                                        Design, develop, implement, and
 Phase I         October 2005       September 2008
                                                        support the 2008 census rehearsal

                                                        Open data center sites, complete
                                                        operational testing, conduct 2010
 Phase II       September 2007       December 2010      decennial operations, and close down
                                                        DRIS 2010 operations facilities once the
                                                        census is complete

                                                        Archive DRIS data and images in
                                                        accordance with National Archives and
 Phase III       October 2010       September 2011      Records Administration guidelines and
                                                        dispose of DRIS equipment once it is no
                                                        longer needed
Source: DRIS Contract No YA1323-05-CN-0029.


In September 2007, Census awarded contract modification number 21, at a value of about
$264.6 million, to Lockheed Martin. Most of the cost for the modification—$         million—was
for increasing the scope of the bureau’s outbound telephone coverage follow-up operation (in
which households were contacted by telephone to verify the information provided in mailed-back
Census forms) from 2.6 million to 6.81 million cases. The remaining $          million was for the
re-instatement of development and planning tasks that had been removed as a result of an earlier
contract re-planning effort, and the increase of the available award-fee pool.
The objectives of our audit were to determine whether the contracting officer appropriately
awarded contract modification number 21 and used the appropriate contract type for the initial
DRIS contract award. Appendix A outlines the scope and methodology we used in this audit.
We found that the bureau did not have adequate contract pre-award practices in place to ensure
that modification number 21 was properly awarded. Specifically, Census did not


                                                1
 
U.S. Department of Commerce                                            Final Report No. OIG-11-020-A

Office of Inspector General                                                         February 15, 2011 



    •	 perform the required review for legal sufficiency before issuing the solicitation;
    •	 retain essential documentation as part of the contract file to support the contracting
       officers’ price reasonableness decision; and
    •	 have the acquisition plan—which reflected significant changes resulting from
       modification number 21 that affected the DRIS program—approved by the Department
       of Commerce’s Senior Procurement Executive before issuing the solicitation.
The lack of well-defined pre-award processes could have resulted in an inability for the bureau to
promote and provide for full and open competition and ensure a fair and reasonable price in
awarding this modification.
Our audit highlights some ways Census can improve its contracting practices. Sound
procurement practices should be in place to ensure federal funds are appropriately spent and that
Census maintains integrity in its day-to-day procurement operations. The internal control
weaknesses in the DRIS contract occurred because acquisition and contracting officials did not
adhere to federal and Commerce acquisition regulations and policies, leaving Census without
assurance that the contract modification price was fair and reasonable, competition was
maximized, or that the government’s interests were protected.
Furthermore, it is unknown whether the bureau’s use of an award-fee contract type for the initial
DRIS contract was appropriate. This is largely because Census committed to this contract
without sufficiently justifying its use as required by the Federal Acquisition Regulation. Award-
fee contracts can motivate contractor performance when certain performance standards are
applied. Census’s award-fee practice of offering contractors opportunities to earn large fees for
less-than-satisfactory performance establishes a culture in which the bureau expects to pay—and
contractors expect to receive—most of the available award fee regardless of outcome. These
practices provide little incentive for contractors to meet minimum contract requirements, much
less exceed them, and could compromise the integrity of the fee process.
Until Census improves the internal controls on its acquisition function and ensures contracting
officials effectively design and implement contracts, it will continue to risk wasting taxpayer
dollars by using poor contracting practices and potentially paying sizable awards for subpar
contractor performance.
 




                                                 2
 
U.S. Department of Commerce                                                               Final Report No. OIG-11-020-A

Office of Inspector General                                                                            February 15, 2011 



                                                           Findings and Recommendations


I.         DRIS Contract Modification’s Pre-Award Process Needed Improvement

The Census Bureau has internal control weaknesses associated with executing key pre-award
processes for awarding contract modification number 21. For instance, Census did not ensure
that the modification was reviewed for legal sufficiency before the solicitation was issued,
leaving the bureau at risk for disputes. Further, contract files do not include documentation that
price and/or cost analyses were performed for determining fair and reasonable price. Also,
Census did not have the acquisition plan approved by the Department of Commerce’s Senior
Procurement Executive until over 5 months after issuing the solicitation1—failing to ensure that
this major program change had the appropriate level of oversight.
Acquisition and contracting officials stated that these control weaknesses occurred because the
officials found the pre-award process confusing. Therefore, they did not adhere to federal and
Commerce acquisition regulations and policies. The lack of well-defined pre-award processes
may have resulted in the bureau’s inability to promote and provide for full and open competition
and ensure a fair and reasonable price in awarding this modification.


A. A Review for Legal Sufficiency Was Not Performed
Legal reviews are conducted to determine if the procurement package is legally sufficient—
meets all legal requirements—and ensure that the government’s interests are protected. The
Commerce Acquisition Manual requires all modifications expected to exceed $100,000 be
reviewed for legal sufficiency. Also, Department Administrative Order 208-5 states that all
noncompetitive awards involving $50,000 or more, including modifications to existing contracts
involving the procurement of new or additional requirements, shall be subject to legal review by
the Assistant General Counsel for Administration, or designee, prior to execution.2
We found that the contracting officer did not obtain the required review for legal sufficiency
before issuing the solicitation, leaving Census vulnerable to protests.3 Instead, the acquisition
office—through its own interpretation—determined that the modification was within the scope
of the contract and did not require a legal review. However, the acquisition office could not
provide documentation demonstrating that the modification was within scope and did not need to
be re-competed. Our review indicates that the contracting officer may have issued the contract
modification for work that was outside the scope of the original DRIS contract. Specifically, the
modification represents a significant change in the amount of work and overall cost of the
contract. The increase from 2.6 to 6.81 million outbound telephone coverage follow-up cases is
an increase of 150 percent, and the additional $      million attributed to these additional services
is over    percent of the original contract price. Therefore, absent a legal review finding the
                                                            
1
  The solicitation was issued on March 1, 2007. 

2
  “Contracting (Procurement) Review and Approval Requirements,” dated September 10, 1984. Note that the 

Assistant General Counsel for Finance and Litigation, through the Contract Law Division, now performs these 

reviews. Procurement memorandum 2010-04, dated January 15, 2010, amends Department Administrative Order

208-5, raising the threshold for all noncompetitive awards to $100,000 or more. 

3
  A protest is a written objection by an interested party to an award or proposed award of a contract. 



                                                                        3
 
U.S. Department of Commerce                                                            Final Report No. OIG-11-020-A

Office of Inspector General                                                                         February 15, 2011 



modification within scope, the potentially out-of-scope work should have been awarded using
competitive procedures or supported with a justification and approval4 for other than full and
open competition, in accordance with legal requirements.
Contract actions, such as modifications, are deemed by law to satisfy competition requirements if
they are within the scope, period of performance, and maximum value of a properly awarded
underlying contract. However, decisions concerning the scope of a contract involve subjective
analysis and judgment. In making this determination, the contracting officer must decide whether
the new work is encompassed by the existing contract’s statement of work and the original
competition for that contract. Guiding principles for scope of contract determinations are
established in case law, such as bid protest decisions of the Comptroller General. These decisions
establish that the key factor is whether there is a material difference between the new work and
the contract that was originally awarded. Under the Competition in Contracting Act of 1984,5
modifications of awarded contracts are exempted from the competitive process unless the change
is beyond the scope of the original contract. In this case, a legal review might have revealed that
the modification was out of scope due to the significant changes to the work and cost called for
by the original contract, in which case the contracting officer did not properly compete the
additional requirements and possibly did not receive a fair and reasonable price.


B. Modification Awarded Without Documenting Price Reasonableness
The Federal Acquisition Regulation6 requires that contracting officials determine price
reasonableness before awarding a contract, and that documentation supporting these
determinations is in the contract file. The Federal Acquisition Regulation7 provides examples of
the records normally kept in the contract files, such as the contractor’s proposal, cost or price
analysis, and audit reports. Also, the Commerce Acquisition Manual 8 requires that the decision
that a price is fair and reasonable must be based upon some form of analysis, either price analysis
or a combination of price and cost analysis.
The contracting officer did not comply with the Federal Acquisition Regulation when
documenting fair and reasonable price determinations. The contracting officer stated in the price
negotiation memorandum that the contractor’s proposed price of $264.6 million for the
modification was well supported and reasonable based on the cost negotiation team’s detailed
review of all aspects of the contractor’s cost proposal, including evaluating various rates such as
indirect, direct, and general and administrative. The contracting officer awarded the
modification, valued at the contractor’s proposed price; however, the contracting officer did not
retain documentation in the contract file, such as a price and/or cost analysis, to support the
determination. Without such documentation, there is no assurance that the decision was
appropriate.


                                                            
4
   A justification and approval is a written authorization, from the appropriate level, to proceed with a contract 

without obtaining full and open competition.

5
   Pub. L. No. 98-369. 

6
   Subpart 15.4, “Contract Pricing.”

7
   Subpart 4.803, “Contents of Contract Files.” 

8
   Part 15. 



                                                               4
 
U.S. Department of Commerce                                                      Final Report No. OIG-11-020-A

Office of Inspector General                                                                   February 15, 2011 



C. Revised Acquisition Plan Was Not Approved Timely by Procurement Executive
The first, and maybe the best, opportunity to reduce risk in any acquisition is in the planning
phase, when critical decisions are made that have significant implications for the acquisition’s
overall success. Achieving the right knowledge at the right time enables leadership to make
informed decisions about when and how best to move into succeeding phases. The acquisition
plan provides the framework for planning, directing, contracting for, and managing a program.
The Commerce Acquisition Manual 9 requires that significant changes in the acquisition plan be
approved by the Department of Commerce’s Senior Procurement Executive before they are
implemented—meaning before issuing the solicitation. The manual also states that the
requirement for approving an acquisition plan may be waived by the Senior Procurement
Executive on the basis of urgency or for some other justifiable reason; however, the request for
waiver must be in writing and submitted for approval prior to the release of the solicitation.
Census did not have the acquisition plan approved by the Senior Procurement Executive or
request a waiver for doing so before issuing the solicitation. Although the plan was approved by
the Senior Procurement Executive in August 2007, it was over 5 months after the solicitation was
issued. As a result, there was no assurance that Census employed sound investment
methodologies.


Recommendations

We recommend that the Census Bureau’s Chief, Acquisition Division
       1.	 develop and implement internal controls to ensure that, going forward, pre-award policies
           and processes for the deficiencies identified in this audit report are adhered to; and
       2.	 direct the DRIS contracting officer to
                      a.	 obtain reviews for legal sufficiency to ensure that any future modifications under
                          the DRIS contract are within the scope of that contract,
                      b.	 retain as part of the contract file the supporting documentation used to make the
                          price reasonableness determinations, and
                      c.	 have all acquisition plans with significant revisions that would affect the DRIS
                          program be approved by the Senior Procurement Executive before issuing the
                          solicitation.


II.	       Census Bureau’s Practices for Justifying an Award-Fee Contract and Establishing
           the Payment Structure Are Not Consistent with Federal Acquisition Guidance

Cost-reimbursable contracts involve high risk for the federal government because of the potential
for cost escalation and because the government pays a contractor’s costs of performance
regardless of whether the work is completed. Award-fee contracts, a type of cost-reimbursable
contract, are used throughout the government to encourage contractors to perform efficiently and
                                                            
9
    Subpart 7.1.


                                                               5
 
U.S. Department of Commerce                                            Final Report No. OIG-11-020-A

Office of Inspector General                                                         February 15, 2011 



effectively, and to motivate excellent contractor performance. Award-fee contracts are
appropriate when contracting and program officials cannot establish in advance cost, schedule, or
technical performance objectives. Under current regulations, contracting officers are required to
prepare a determination and findings document to justify a cost-reimbursement contract (as is the
case for using award-fee contracts), and are generally required to include in the contract file
documentation showing why a particular contract type was selected. In this case, Census chose to
prepare a determination and findings document to meet this requirement.
We found that the contracting officer did not properly complete the determination and finding
justifying the selection of an award-fee contract type for the initial DRIS contract. While an
award-fee contract may have been appropriate, for the most part the documentation used
boilerplate language and did not sufficiently show why this type of contract was selected. For
instance, the contracting officer should be able to demonstrate whether an award-fee contract’s
benefits (e.g., dollars saved by tighter cost control or enhanced technical capability) would
outweigh the additional oversight and administrative costs; however, the contracting officer did
not justify the contract’s cost-effectiveness. Without such an evaluation, Census had no
assurance that an award-fee contract was appropriate.
Further, the award-fee payment structure provided little incentive for the contractor to excel in
carrying out the terms of its award-fee contract performance objectives. For instance, the
contractor could receive up to 74 percent of the award-fee pool—approximately $48 million of
the total $65 million in the available pool over Phases I and II of the contact—for performance
below the acceptable standards.

A. Census Bureau Has No Assurance That the Contract Type Is Appropriate for the Initial
   Contract Award
On February 15, 2005, the contracting officer chose to prepare a determination and findings
document to justify the use of a cost-plus-award-fee contract. The Federal Acquisition
Regulation states that the determination and findings must include enough facts, circumstances,
or reasoning to clearly and convincingly support the contract type selected. However, the
contracting officer did not properly prepare the determination and findings. The language
contained in the determination and findings virtually repeated verbatim the Federal Acquisition
Regulation requirement for using an award-fee contract without providing further explanation or
supporting documentation. For example, the determination and findings cited that
   •	 the administrative costs of conducting award-fee evaluations are not expected to exceed
      the expected benefits, and
   •	 appropriate government surveillance during performance will provide reasonable 

      assurance that efficient methods and effective cost controls are used. 


However, the determination and findings did not contain details of the particular circumstances
or facts essential to support the determination, such as an analysis supporting the cost-
effectiveness of using an award-fee contract.
While award-fee contracts can provide incentives to spur innovation and reduce costs, they
require greater effort and more resources than other contract types to monitor and document



                                                 6
 
U.S. Department of Commerce                                                      Final Report No. OIG-11-020-A

Office of Inspector General                                                                   February 15, 2011 



contractor performance. Subsequent to the DRIS contract award, the Office of Management and
Budget has directed contracting officers to conduct and document risk and cost-benefit analyses
when determining whether to use award-fee contracts.10 Risk and cost analyses related to the use
of award-fee contracts should be prepared in writing and approved at a level above the
contracting officer or as determined by the agency. In October 2009, the Federal Acquisition
Regulation reinforced this requirement by adding a specific requirement for agencies to complete
a determination and findings document to justify the cost-effectiveness of an award-fee contract
before committing to this contract type.11


B. Payment Structure Rewards Minimal Contractor Performance
Census rates contractor performance on a point scale, from 0 to 100. While the award-fee scores
on the DRIS contract indicate satisfaction with the results of the contract, the payment structure
(scale) used when calculating the award fees under this contract did not provide strong incentives
for the contractor to attain better-than-average
results. For example, the payment structure            Table 2. Performance Rating 

awarded no fee for a score of 49 or less, but did     Scale and Potential Maximum 

award a fee for a score of 50 or above. Table 2
shows the rating scale and potential award                          Award Fees 

payouts. Thus, if the contractor receives a score
                                                     Performance rating of:
of 50–74, meaning the contractor partially
achieved the contract performance objectives,        •	 Full Achievement earns 93-100% of
Census would bestow on the contractor between            available award-fee pool
50 to 74 percent of the award-fee pool. In the
                                                     •	 Substantial Achievement earns
DRIS contract, the contractor could earn award
                                                         85-92% of available award-fee pool
fees of up to $48 million of the available
$65 million over Phases I and II for only            •	 Acceptable Achievement earns
partially achieving performance objectives.              75-84% of available award-fee pool
Thus, only about $17 million remained to             •	 Partial Achievement earns 50-74% of
further motivate the contractor to fully meet or         available award-fee pool
exceed performance objectives. This type of          •	 (No award fee if rated below 50%)
payment structure does not only allow
contractors to receive substantial payments for    Source: DRIS Contract Award Fee Plan for Period
less-than-satisfactory performance; it also        No. 7
leaves little in the award-fee pool to encourage
contractors to meet or exceed expectations and achieve desired outcomes.
To encourage contractor excellence, the December 2007 Office of Management and Budget
guidance states that there should be clear distinctions in possible award earnings between
satisfactory and excellent performance. Office of Management and Budget guidance further
states that no award fee should be paid for performance that is judged to be below satisfactory or
does not meet basic contract requirements.

                                                            
10
   Office of Mgmt. & Budget, Executive Office of the President, December 4, 2007. Appropriate Use of Incentive 

Contracts. 

11
   Subpart 16.4. 



                                                               7
 
U.S. Department of Commerce                                                          Final Report No. OIG-11-020-A

Office of Inspector General                                                                       February 15, 2011 



Although Phase II is almost complete, Census has an opportunity to revise its payment structure
for Phase III, which the bureau awarded on September 24, 2010. Under the DRIS contract, the
award-fee approach permits unilateral modification of the performance evaluation plan12 to
reflect changes in management emphasis. The bureau included a clause in the contract allowing
unilateral change to the plan if the contracting officer provides written notice to the contractor no
later than 15 days before the start of an evaluation period.


Recommendations

We recommend that the Census Bureau’s Chief, Acquisition Division
       1.	 ensure determination and findings on future contracts contain sufficient details of the
           particular circumstances or facts essential to supporting the use of an award-fee contract
           type;
       2.	 conduct a cost-benefit analysis when choosing future award-fee contracts, and document
           how the benefits will offset the additional costs associated with administering such a
           contract; and
       3.	 require the contracting officer to revise the award-fee payment structures of the DRIS
           contract for Phase III to create a structure that
                      a.	 provides greater incentive for excellent contractor performance, and
                      b.	 prohibits the contractor from receiving award fees for performance judged to be
                          less than satisfactory.
 




                                                            
12
  The performance evaluation plan is the basis for determining the amount of award fee and includes the award-fee
criteria to be considered under each area evaluated; the percentage of award fee, if any, available for each area; and
the frequency of evaluation periods.


                                                               8
 
U.S. Department of Commerce                                             Final Report No. OIG-11-020-A

Office of Inspector General                                                          February 15, 2011 



                         Summary of Agency and OIG Comments

In responding to our draft report, Census concurred with all of our recommendations. We are
encouraged that steps have already been initiated to address our recommendations, and we look
forward to the bureau’s action plan that will provide details on the corrective actions to be taken.
See appendix B for the complete response. In it, Census also provided technical comments and
suggested revisions to the introduction section of our report, which have been addressed in the
report as appropriate.
Despite concurring with our recommendations, Census raised several concerns about our
findings:
   1.	 Census asserted that it did justify the use of an award-fee contract. As noted in our report,
       Census chose to prepare a determination and findings document to justify this type of
       contract. We found that the language in the determination and findings virtually repeated
       verbatim the Federal Acquisition Regulation requirement for using an award-fee contract,
       without providing further explanation or supporting documentation. For example, an
       award-fee contract is suitable when its expected benefits outweigh the additional
       administrative effort and cost required to monitor and evaluate contractor performance.
       However, rather than conduct a cost-benefit analysis, Census merely repeated in its
       determination and findings document the regulation’s language that “the administrative
       costs of conducting award-fee evaluations are not expected to exceed the expected
       benefits.”
       Federal Acquisition Regulation part 1.7 requires that each determination and findings
       document include specific facts to support the determination being made—it is not
       enough to simply restate the regulation. In any case, in its response to our draft report,
       Census agreed to conduct a risk and cost-benefit analysis for all future award-fee type
       contracts to be included in a determination and findings document.
   2.	 Census agrees that offering contractors large fees for less-than-satisfactory performance
       provides little incentive for them to meet minimum contract requirements. Yet, in
       response to our draft report, Census stated that it provided ample incentive for excellent
       contractor performance based on the fact that the contractor has earned an average of
            percent of the available award-fee pool. While our audit did not assess the validity
       of award-fee payments made by Census based on documentation used to support them,
       we disagree with Census that ample incentive for contractor performance was provided
       simply because the contractor received almost all of the available award fees.
       The Federal Acquisition Regulation states that award fees should be used to motivate
       excellent contractor performance. To encourage contractor excellence, OMB guidance
       states that there should be clear distinctions in possible award earnings between
       “satisfactory” and “excellent” performance levels. As noted in our report, the award-fee
       rating scale offered the contractor opportunities to earn award fees for what the DRIS
       award-fee plan describes as less-than-satisfactory performance. In this case, Census’s
       scale could pay the contractor up to $48 million, or 74 percent of the available award-fee
       pool, for less-than-satisfactory performance. Engaging in such a practice is inconsistent
       with the intent of award fees and could reduce the effectiveness of these fees as



                                                 9
 
U.S. Department of Commerce                                              Final Report No. OIG-11-020-A

Office of Inspector General                                                           February 15, 2011 



       motivators of performance. Census revised the award-fee rating scale in response to our
       recommendation in this report.
Census also disagreed that the planning process for modification number 21 was inadequate.
However, we found that Census had internal control weaknesses associated with executing key
pre-award processes for awarding the modification. Overall, Census did not follow federal
acquisition and department contracting procedures and processes, such as appropriately
documenting important decisions in the contract files. Circumventing the acquisition planning
process does not provide assurance that sound investment methodologies were employed, or that
the highest return on the investment or a determination of acceptable project risk was provided.
In its response, Census raised the following concerns about our findings with regard to
modification number 21:
   1.	 Census noted that it is the contracting officer’s responsibility to make determinations
       regarding whether or not the proposed work is within scope. Census also stated that the
       dollar amount associated with the work is only one factor in determining scope. We
       acknowledge that these statements are true; however, as stated in our report, Census did
       not adhere to the Commerce policy that requires modifications to existing contracts be
       reviewed for legal sufficiency. Such reviews are critical because they ensure that all legal
       requirements are met and that the government’s interests are protected. The contracting
       officer did prepare a determination statement that modification 21 was within scope of
       the original DRIS contract. However, the justification document was prepared in October
       2009—2 years after the modification had been awarded—in response to our audit of the
       contract.
       In its response to our draft report, Census acknowledged that it did prepare the within-
       scope determination documentation late, but pointed out that the Department’s legal staff
       was part of the planning process and had been made aware of all changes as they
       occurred. Nevertheless, Federal Acquisition Regulation subpart 4.8 states that sufficient
       documentation must be maintained in order to keep a complete record of management
       officials’ deliberations and key decisions. Documenting decisions provides support for
       actions taken, provides essential facts in the event of litigation, and serves as proof of
       management’s due diligence as stewards of taxpayers’ money.
   2.	 Census believed that the price negotiation memorandum clearly demonstrated that price
       and cost analyses were conducted. The memorandum states that the contractor’s proposed
       price was fair and reasonable based on reviews performed by various teams. However,
       the contract files did not contain any supporting documentation, such as a cost or price
       analysis, nor was Census able to provide us with any other evidence to adequately
       explain the basis for the determination.
       Federal Acquisition Regulation subpart 4.8 cites cost and price analyses as examples of
       the types of record that should be retained in the contract file. In its response to our draft
       report, Census did agree to ensure that future price negotiation memorandums are well
       documented to reflect the process and actions that actually occurred.
   3.	 Census contended that the Senior Procurement Executive, as a member of the Commerce
       Information Technology Review Board, approved the modified acquisition plan.
       Although the modified plan was approved, it was done contrary to departmental policy.


                                                 10
 
U.S. Department of Commerce                                            Final Report No. OIG-11-020-A

Office of Inspector General                                                         February 15, 2011 



       As noted in our report, Census did not adhere to the Commerce Acquisition Manual
       requirement that the Department’s Senior Procurement Executive approve modified
       acquisition plans before issuance of the solicitation. In this case, the Senior Procurement
       Executive did not approve the modified plan until 5 months after the solicitation was
       issued and 2 months after the contractor’s proposal evaluation process was completed,
       thus giving the appearance of “rubber stamping” the modified plan.




                                                11
 
U.S. Department of Commerce                                          Final Report No. OIG-11-020-A

Office of Inspector General                                                       February 15, 2011 



                              Appendix A: Scope and Methodology

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives. To accomplish our objectives, we
   •	 Reviewed Census’s procurement practices used to support the bureau’s decision to award
      modification number 21 and selection of the contract type for the DRIS contract. We
      assessed those procurement practices against criteria contained in the Federal Acquisition
      Regulation, the Commerce Acquisition Manual, Office of Management and Budget, and
      other applicable departmental and federal regulations and guidance.
   •	 Interviewed a range of Census staff involved in the DRIS program, including the chief of
      contracting, contracting officer, and program management office representatives to
      determine the bureau’s policies and business practices for contract awards and
      modifications. We also met with project management staff at Lockheed Martin.
   •	 Analyzed documentation used to support Census’s decision to award modification
      number 21 and selection of the contract type for the DRIS contract. The documentation in
      the contract file we reviewed included the contracting officer’s acquisition plan, price
      negotiation memorandum, and determination and finding. We also reviewed briefing
      documents from Census requesting approval of the acquisition change and the
      procurement executive decision letter approving it. We also examined the bureau’s
      program decision memorandums and decision documents related to telephone coverage
      follow-up. In addition, we reviewed the adequacy of the rating scale of the award-fee
      plan.
   •	 Received assistance from our Office of Counsel to determine if modification number 21
      was within the scope of the contract. To do so, we reviewed case decisions from the
      Comptroller General, the United States Court of Appeals for the Federal Circuit, and the
      Court of Federal Claims and the Competition in Contracting Act of 1984, and other
      relevant laws and regulations.
We conducted this audit between March 2009 and October 2010. We performed our work at the
U.S. Census Bureau in Suitland, Maryland. We obtained an understanding of the internal
controls of the processes used to award and administer DRIS contract modifications by
reviewing the Commerce Standard Acquisition Reporting System (CSTARS). The Department
relies on this system to allow managers to review and approve purchase requests, issue
modifications, and obligate funds. We also interviewed Census staff about the CSTARS work
flow. Furthermore, we met with Census acquisition staff to gain an understanding of the reasons
for and timing of the modification award. While we identify and report on internal control
deficiencies no incidents of fraud, illegal acts, violations, or abuse were detected within our
audit. We identified weaknesses in the controls related to the bureau’s pre-award process for
awarding modification number 21 and award-fee processes. We did not rely on computer-
processed data to perform this audit. We performed our work under authority of the IG Act of
1978, as amended, and Department Organizational Order 10-13, dated August 31, 2006.



                                               12
 
U.S. Department of Commerce                                 Final Report No. OIG-11-020-A

Office of Inspector General                                              February 15, 2011 



                              Appendix B: Bureau Response




 




                                          13
 
U.S. Department of Commerce          Final Report No. OIG-11-020-A

Office of Inspector General                       February 15, 2011 





 




                              14
 
U.S. Department of Commerce          Final Report No. OIG-11-020-A

Office of Inspector General                       February 15, 2011 





 




                              15
 
U.S. Department of Commerce          Final Report No. OIG-11-020-A

Office of Inspector General                       February 15, 2011 





 




                              16
 
U.S. Department of Commerce          Final Report No. OIG-11-020-A

Office of Inspector General                       February 15, 2011 





 




                              17
 
U.S. Department of Commerce          Final Report No. OIG-11-020-A

Office of Inspector General                       February 15, 2011 





 




                              18
 
U.S. Department of Commerce          Final Report No. OIG-11-020-A

Office of Inspector General                       February 15, 2011 





 




                              19
 
U.S. Department of Commerce          Final Report No. OIG-11-020-A

Office of Inspector General                       February 15, 2011 





 




                              20
 
U.S. Department of Commerce          Final Report No. OIG-11-020-A

Office of Inspector General                       February 15, 2011 





 




                              21
 
U.S. Department of Commerce          Final Report No. OIG-11-020-A

Office of Inspector General                       February 15, 2011 





                                                                     

OAE-19536 



                              22
 
